<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         ORGANIZATIONAL MEETING

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, JANUARY 25, 2011

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
66-135                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREG HARPER, Mississippi             ROBERT A. BRADY, Pennsylvania, 
PHIL GINGREY, M.D., Georgia              Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES GONZALEZ, Texas
RICHARD NUGENT, Florida

                           Professional Staff

                      Philip Kiko, Staff Director
                  Jamie Fleet, Minority Staff Director

 
                         ORGANIZATIONAL MEETING

                              ----------                              


                       TUESDAY, JANUARY 25, 2011

                  House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:45 p.m., in room 
1310, Longworth House Office Building, Hon. Daniel E. Lungren 
(chairman of the committee) presiding.
    Present: Representatives Lungren, Harper, Gingrey, Schock, 
Nugent, Rokita, Brady, Lofgren, and Gonzalez.
    Staff Present: Phil Kiko, Staff Director & General Counsel; 
Peter Schaelstock, Deputy General Counsel; Kimani Little, 
Parliamentarian; Joe Wallace, Legislative Clerk; Yael Barash, 
Assistant Legislative Clerk; Salley Wood, Communications 
Director; Karin Moore, Elections Counsel; Jamie Fleet, Minority 
Staff Director; Kyle Andersen, Minority Press Secretary; and 
Matt Pinkus, Minority Parliamentarian.
    The Chairman. I would like to call to order the Committee 
on House Administration for its organizational meeting for the 
112th Congress. A quorum of its members is present, so we may 
proceed.
    Given that this is our first meeting, I would like to thank 
everybody for coming here. I would like to thank my Democratic 
colleagues for being here in a timely fashion, and we will try 
and do the same thing for you.
    We don't receive the limelight other committees do, but the 
work we do here is very important. A good portion of the work 
that we do here enables our colleagues and enables us to serve 
our constituents in effective and efficient ways, and that is 
an important job. What we do is absolutely vital to the proper 
functioning of this institution and our electoral system.
    So I want to welcome everybody here, particularly those who 
served on the committee before: Mr. Harper on my side; my 
ranking member; the gentlelady from California, with whom I 
serve on another committee and several other committees in the 
past; and the gentleman from Texas, the former judge, who I 
have to say was both accommodating, bipartisan and very fair 
when we had the consideration of a contested election just a 
couple of Congresses ago, and for that I am very pleased to see 
him on this committee.
    We have several new members on our side. Dr. Gingrey is 
joining us. He is a veteran in the Congress, but this is his 
first service on this committee. Mr. Schock, who has been with 
us a couple of terms here in the Congress, started as a mere 
child and is still here.
    Mr. Schock. Still a child.
    The Chairman. Still a child, who actually volunteered for 
this committee. He is very interested in helping us make this 
institution run. And Sheriff Nugent, a law enforcement officer 
and elected official from the State of Florida, who also was 
interested in serving on this committee. And we have one other 
that we are waiting for, but we can proceed, Mr. Rokita, who is 
the former secretary of State, that is the top elections 
officer, for the State of Indiana, also will be joining us in a 
moment.
    I just want to say that, in the last Congress, I was very 
privileged to be the ranking member serving with Mr. Brady, the 
chairman. He acted in a bipartisan fashion. We did not, I 
think, attempt to surprise each other. When we had disputes, we 
were very open about the disputes we had. In most cases, we 
worked very, very closely together, and I hope that we will 
have that opportunity at this time as well. The work of this 
committee is very, very important, and I am very pleased that 
we are here.
    Today, we have to do a number of things, including formally 
adopting our rules for the committee, formally adopting the 
subcommittees and the members on the subcommittees. And I would 
just like to say that we are going to have two subcommittees: 
one on Oversight and one on Elections. I thought, because of 
the importance of the security issue, that we keep that at the 
full committee so all members may participate in it.
    I have had conversations with many members, including most 
members on this panel. There are a lot of ideas out there, 
about what we should and can do, and I want to be very serious 
about that and proceed on a bipartisan basis on that as well.
    One of the things that I found from other members is a very 
serious concern about how we provide appropriate security in 
the district and the district offices, and that is one thing 
that I think that we should be very, very cognizant of.
    The one area where I find that we do find some divergent 
points of view based on our party is in the area of election 
law, but I think there are probably some areas where we can get 
some agreement there as well. And if we have disagreements, we 
will deal with them openly, and we will have opportunity for 
discussion and opportunity for debate and opportunity for 
amendment as well.
    And so, with that, I would like to invite my ranking 
member, Mr. Brady, to give any comments he may have.
    Mr. Brady. Thank you, Mr. Chairman.
    Just real quickly, you already introduced our returning 
members.
    I thank them for their service in the past and look forward 
to, again, their service in the future, especially Ms. Lofgren, 
who I understand now is not on the Ethics Committee any 
longer--but did an outstanding job, and it is good to have you 
back here with me.
    Mr. Chairman, I appreciate you. I appreciate your fairness. 
You went right down the line, almost to the square foot, on the 
one-third/two-thirds with the office space. And I appreciate 
the money, the finances. You went right down the two-thirds/one 
thirds with that, and I do appreciate that. And I appreciate 
you. I appreciate your friendship, your decency, and I look 
forward to working along with you, as you have with me in the 
last 4 years.
    Also for the new members, this is a committee that helps 
people. We don't want to help them get in trouble; we want to 
help them before they get in trouble. We like to work that way. 
The Chairman and I always did that. If there is anything we can 
do, we will bend over backwards to put you on the right path. 
We have a great staff, both minority and majority, that we 
instruct to do that.
    So, this is a Members' committee, and you are fortunate to 
have a chairman that knows that, and I think I know that, too, 
and we will continue to go forward with that.
    So, again, thank you, and I look forward to a good 
productive couple of years with you at the head. Thank you.
    The Chairman. Thank you very much, Mr. Ranking Member and 
former chairman.
    I would say one of the bits of counsel I have given to the 
freshmen Members is to contact The House Administration 
Committee, and in many ways, that will avoid the House Ethics 
Committee from contacting you. We do try and explain what is 
allowable under the Rules and how that is effectuated by 
Members' proper use of their MRAs, as well as the questions we 
have on committees and other things. So we do strive to do 
that.
    Mr. Brady. Just one other thing. It is private. It will be 
private. It will be confidential. If there is something you 
think you are going down the wrong path, we keep it private. We 
keep it confidential, because it could be one of us one day.
    The Chairman. I know some other members have to go to some 
other committee meetings. We have just a small bit of official 
business here. But prior to that, I would ask if any members, 
either veterans of this committee or new members, have anything 
to say.
    All right. With that, I would like to consider the 
Resolution 112-1, committee rules.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Pursuant to House Rule XI, Clause 2, the 
Committee on House Administration shall adopt written rules 
governing its procedure. The proposed rules for the committee 
are found in Committee Resolution 112-1, which all members have 
been given a copy of.
    The rules are similar to the rules adopted by this 
committee during the last Congress with just a few changes. The 
changes have been made to conform our committee rules to the 
House Rules, as amended in this Congress.
    Most of the changes provide for greater transparency. For 
example, they specify that documents must be posted on the 
committee's Web site. They provide for 3 days notice of 
committee meetings. They require that the text of any 
legislation to be considered at a meeting be posted 24 hours in 
advance. They also require that any amendments adopted at a 
meeting be posted online within 24 hours. And they reflect the 
change in our subcommittee structure.
    We worked with the minority to prepare these rules, and we 
appreciate their input. And we made some changes in accordance 
where their input. Overall, I think that these changes provide 
for greater transparency in the operation of the committee and 
hope that members will support them.
    So at this time I would ask whether there are any 
amendments to the resolution?
    If not, I would call for the vote. And I ask for all 
members who are in favor of adopting the resolution to signify 
by saying aye.
    Any opposed?
    In the opinion of the chair, the ayes have it, and the 
resolution is adopted, and so ordered.
    As noted in Rule no. 16 of the Rules of the Committee on 
House Administration for the 112th Congress, there shall be two 
standing subcommittees of this committee. The names and 
jurisdictions of the subcommittees shall be, number one, the 
Subcommittee on Elections, which will deal with matters 
pertaining to election law, including the Federal Election 
Campaign Act, the Federal Contested Elections Act, and the Help 
America Vote Act; number two, the Subcommittee on Oversight, 
which shall deal with matters pertaining to the operations of 
the Library of Congress, the Architect of the Capitol, the 
Capitol Visitor Center, the Chief Administrative Officer, the 
Government Printing Office, and the House Inspector General, 
among others.
    Committee Resolution 112-2 appoints members to the 
subcommittees as follows: On the Subcommittee on Elections, 
Representative Harper will be the chair and the other 
Republicans will be Representatives Gingrey, Nugent and Rokita. 
Representative Lofgren will be the ranking member. 
Representative Gonzalez will also be on the subcommittee--
    Ms. Lofgren. No.
    The Chairman. Okay. Representative Robert Brady from 
Pennsylvania and Representative Charles Gonzalez, with Mr. 
Brady being the ranking member on the subcommittee.
    The Subcommittee on Oversight: Representative Gingrey from 
Georgia will be the chairman. The other members will be 
Representative Schock and Representative Nugent and 
Representative Rokita on the Republican side. Zoe Lofgren, as I 
understand it, will be the ranking member on that subcommittee, 
and Mr. Gonzalez will be the other member on that subcommittee.
    Are there any amendments to the resolution or discussion on 
the resolution?
    Hearing none, I would ask members who are in favor of 
adopting the resolution to signify by saying aye.
    Any opposed?
    Hearing none, it is so ordered.
    Pursuant House Rule X, Clause 2 and Clause 4, the Committee 
on House Administration shall conduct oversight of matters 
within its jurisdiction. Rule X, Clause 2(d) further states 
that no later than February 15th of the first session of 
Congress, this committee shall adopt an oversight plan for that 
Congress. The proposed oversight plan for the 112th Congress is 
found in Committee Resolution 112-3, which has been distributed 
to all members.
    This year's oversight agenda will focus on identifying and 
reducing wasteful spending within House operations by 
increasing operational efficiency and attempting to streamline 
various House technology initiatives. Members' services and 
franking regulations will also be a high priority for the 
committee as we work to simplify procedures and provide 
guidance on how Members can effectively communicate with their 
constituents, particularly as it pertains to the use of social 
media and emerging technologies.
    And I have been encouraged by discussions that have already 
taken place between our two sides on that, and I think we can 
resolve some of these issues and make it work more efficiently 
and also make it easier for the Members to understand what they 
can or cannot do. Making things Member-friendly is very 
important, and that is part of our overall oversight agenda.
    The committee will also work with the agencies under our 
direct oversight by establishing best practices to improve 
their services to the House community, as well as the millions 
of constituents visiting each year. These agencies include the 
Office of Chief Administrative Officer, Architect of the 
Capitol, House Inspector General, Clerk of the House, Sergeant 
at Arms, the Library of Congress, Smithsonian Institute, the 
Government Printing Office, and the United States Capitol 
Police.
    Again, I would ask if there are any comments or amendments 
to this resolution.
    Hearing none, I would ask for the vote.
    I ask for all members who are in favor of adopting the 
resolution to signify by saying aye.
    Any opposed?
    Hearing none, it is so ordered.
    Now, the nitty-gritty. The resolution on the parking 
policy. Pursuant to House Rule X, Clause 1, the Committee on 
House Administration has jurisdiction over the parking 
facilities used by Members, staff and authorized personnel of 
the House of Representatives. The text of the proposed parking 
policy for the 112th Congress is found in Committee Resolution 
112-4.
    I do want to thank the minority for their consultation, 
their suggestions and bipartisan work on the parking policy. 
Further, I want to thank House Parking Security for working 
with the committee to develop the policy.
    We added just a few words to make clear, for instance, if 
you are here for the President's State of the Union address and 
your spouse drives in with another car, we want to make it 
clear that that is appropriate that both cars could be parked 
at the same time; And, if a Member has his car parked here 
while we are on a district work period, that does not 
constitute storage under our rules. I just want to make sure 
that Members know exactly what they can or cannot do.
    Are there any amendments to the resolution or any comments 
on the resolution?
    Hearing none, I would ask for all members who are in favor 
of adopting the resolution to signify by saying aye.
    Any opposed?
    Hearing none, it is so ordered.
    That concludes the official business that we have, and if 
anyone has something for the good of the order, it would be 
heard now.
    If not, I want to thank everybody for their attendance 
here. I meant what I said about the bipartisan nature of this 
committee. We have a lot of work to do. And I want to thank 
everybody for their indications of sincerity and enthusiasm for 
the work that we have to do.
    With that, this committee meeting is adjourned.
    [Whereupon, at 3:00 p.m., the committee was adjourned.]

</pre></body></html>
